August 29, 2008

THOMAS G. DAY
SENIOR VICE PRESIDENT, INTELLIGENT MAIL AND ADDRESS QUALITY

ALEXANDER E. LAZAROFF
CHIEF INSPECTOR, POSTAL INSPECTION SERVICE

KATHLEEN AINSWORTH
VICE PRESIDENT, RETAIL OPERATIONS

JORDAN M. SMALL
VICE PRESIDENT, DELIVERY OPERATIONS

DEAN J. GRANHOLM
ACTING VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT: Audit Report – Identity Theft Potential in the Change of Address Process
         (Report Number IS-AR-08-016)

This report presents the results of our audit of Identity Theft Potential in the Change of
Address (COA) Process (Project Number 08RG009IS000). Our objective was to
determine if COA controls ensure that address change requests were properly
authorized and validated to minimize potential identity theft. This self-initiated audit
addresses the operational risks associated with the U.S. Postal Service’s COA process.
Click here to go to Appendix A for additional information about this audit.

Conclusion

The Postal Service should improve controls to ensure proper authorization and
validation of COA requests, which can be made via Internet Change of Address (ICOA),
Telephone Change of Address (TCOA), and hard copy (Postal Service [PS] Form 3575,
Official Mail Forwarding Change of Address Order, index cards, and letters). The ICOA
and TCOA methods are operating as intended xxxxxx xxx xxxxxxxx xxxxxxxxxxx xxx
xxx xx xxxxxxx xxxxxx xxxxx, xxxxx xxxxxxxxxxxxx xxx xxxxxxxxxx xxxxxxxx xxxxxx xx
xxxxxxxx xxx xxx xxxx xxxx XXX xxxxxxx. In addition, monitoring controls surrounding
the COA complaints process should be improved. Strengthening these controls will
further reduce weaknesses in the COA process that, if left unmitigated, could contribute
to identity theft.
Identity Theft Potential in the Change of Address Process                                               IS-AR-08-016




Authentication of Internet and Telephone Change of Address Orders

Xxxxxxxxx xxxx xxxxxxx xxxxxx xxxxx xx x xxxxx xx xxxxxxxx xxxxxxxxxxxx1 xxxx
xxxxxxxxxx xxxx xxx xxxx xxxxxx, xxxxxxxxxxxxx xxxxxxxxxxxxx xxx xxxxxxx
xxxxxxxxxxxx xxxxxxxx. xxxxxxx, xxxxx xxxxxxx xxxxxx xxxxx xxxx xxx xxxxxxxxxx
xxxx xxx xxxxxxxxxx xxx xx xxx xxxxxxxxx xx xxxxxxxx xx xxxxxx.2 xxxx xxxxxxxx
xxxxxxx xxxxxxxxxx xxx xxx xxxxxx xxxx xxx xxxx xxxxxxxxxxxx xx xxxxxxxx xxx xxx xx
xxxxxxxxx xxxxxxx xxxxxx xxxxx. xxxxxxxxx xxx xxxxxxxxxx xx xxxxxxxxx xxxxxxx
xxxxxx xxxxx xxxx xxxxxxxxx xxxxxx xxxx xxx xxxx xxxxxx xxxxx xxxx xx xxxxxx xxxx
xxxxxxxxxx xxxxxxxxxxx xxxxxx xxx xxxxxx. This will further reduce the risk of diverting
mail to unauthorized addresses, which contributes to potential fraud, identity theft, and
monetary loss to customers. Click here to go to Appendix B for analysis of this topic.

We recommend the Senior Vice President, Intelligent Mail and Address Quality, direct
the Manager, Address Management, to:

1. Update the Internet and Telephone Change of Address applications xx xxxxxxxxx
   xxxxxxxxxx xx xxxxxxxxx xxxxxxx xxxxxx xxxxx.

Authentication of Hard Copy Change of Address Orders

Authorization and validation controls surrounding the hard copy COA process do not
always prevent the acceptance and processing of unauthorized COA requests. Unlike
the electronic COA processes, the hard copy COA process does not have sufficient
controls in place to verify COA orders are legitimate and authorized by the owner of the
address. The Postal Service faces challenges to ensure a proper balance between
providing timely customer service and assuring proper customer authorization for the
hard copy COA process. While policy indicates that employees should reject and return
orders with no signature to delivery units,3 in some cases orders without signature are

1
  . Postal Service policy requires the customer’s credit card billing address to match either the customer’s old or new
address. The eCapabilities and Paypal payment processing systems for ICOA and TCOA, respectively, interact with
the Address Verification System to ensure the customer’s billing address matches the customer’s old or new ZIP
Code. xxxxxxxx xx xxx xxxxxxxxxxxx xx xxx xxx xxx xxx xxxxxxx xx xxx xxxxxxxx xxxxxxxxxxxx xxxxxxx. xxx xxx xx
xxxxxxx xxxxxx xxxxx xxxxxxxxxxx xxxx xxxxxxx.
2
   Xxxxxxxx xxxxxxxxxx xx xxxxxxxxx xxxxxxx xxxxxxxx, xxxx xxx xxx xxxx xxxxxx xxxxxxx, xxxxx xxxx xx,xxxx,
xxxxxxxx x, xxxxxx xxxx xxxxxxxxxx, xxx xxx, xxxx xxxx xxxxxxxxxx xxx xxxxxxxxx, xxxxx xxxxxxxxxxxx x xxxxxxxx
xxxxxxxxxxxxx, xxxx xxxxxxx xxxxxx, xxxxx x, xxxxxxx xxxxxxxxxx, xxxxxxx x, xxxxxx xxxxxxxxxxxxxxxx xxx
xxxxxxxxxx xxxxxxxxxxxx xxxxx.
3
   Handbook PO-250, Consumer Answer Book, Chapter 4, Section 4-4; Change of Address Forms Processing System
(CFPS) Scanner Site Operations Training Course Operator/Supervisor Participant Handbook; and CFS Keying
Rules-Table B-2, Name and Data Information and Table C-1, Reject Reasons-Form Not Signed; U.S.C., Title 18, Part
1, Chapter 63, Section 1342 (Fictitious Name or Address).

3
  Handbook PO-250, Consumer Answer Book, Chapter 4, Section 4-4; Change of Address Forms Processing System
(CFPS) Scanner Site Operations Training Course Operator/Supervisor Participant Handbook; and CFS Keying
Rules-Table B-2, Name and Data Information and Table C-1, Reject Reasons-Form Not Signed; U.S.C., Title 18, Part
1, Chapter 63, Section 1342 (Fictitious Name or Address).



                                                          2
Identity Theft Potential in the Change of Address Process                                             IS-AR-08-016



still being processed. Additionally, we identified other issues with these forms, including
signature mismatches, and Postal Service employees’ signatures or initials rather than
the customers’. Ensuring proper authorization of these hard copy forms could prevent
illegal diversion of mail, which could damage the postal brand and lead to identity theft.
Click here to go to Appendix B for analysis of this topic.

We recommend the Vice President, Intelligent Mail and Address Quality, coordinate with
the Vice President, Retail Operations, the Vice President, Delivery Operations, and the
Vice President, Network Operations, to:

2. Develop and implement a plan of action, with milestones, to enhance controls for
   verifying that COA orders are legitimate and authorized by the owner of the address.

Employee Override of System Warnings

Computerized Fowarding System (CFS) employees could override the Change of
Address Forms Processing System (CFPS) warning notification messages when
manually processing individual COA non-business move orders from a business
address. While CFPS procedures4 prohibit employees from processing these types of
COA orders, management instructed CFS employees to override this warning message
and process these changes. Implementing stronger controls through supervisory
review and approval could mitigate opportunities for employee conflicts of interest and
the creation of false or fictitious COA orders, which could lead to identity theft and fraud.
Click here to go to Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Retail Operations, direct the Manager, Customer
Service Standardization, to:

3. Implement supervisory review and approval for overriding system warnings when
   processing individual Change of Address non-business move orders from a
   business address and update procedures accordingly.

Continuous Monitoring and Evaluation of Change of Address Complaints

The Postal Inspection Service was not regularly monitoring, evaluating, and notifying
the National Customer Support Center (NCSC) and customers regarding the status and
resolution of potentially fraudulent COA complaints. Policy5 states promptness and
resolution are indicators of increased customer satisfaction in the complaint process,
and the referring offices should receive a letter for case closure. These issues occurred
because the Postal Inspection Service had no policies or procedures for regularly

4
  CFPS Scanner Site, Operations Training Course, Operator/Supervisor Participant Handbook, Table C-1, Reject
Reasons.
5
  Postal Operations Manual, Issue 9, dated July 2002 (updated With Postal Bulletin revisions through January 17,
2008), Sections 161, Consumer Services, Overview; and 167.34(e), Responding to Customer Comments and
Complaints, By Letter.



                                                         3
Identity Theft Potential in the Change of Address Process                                             IS-AR-08-016



monitoring, evaluating, or notifying the NCSC and customers concerning the status and
resolution of potentially fraudulent COA complaints. Addressing COA complaints would
contribute to the protection of the Postal Service’s brand, its commitment to protect
customer information, and its efforts to combat identity theft. We will report this non-
monetary impact for goodwill/branding in our Semiannual Report to Congress. Click
here to go to Appendix B for our detailed analysis of this topic.

We recommend the Chief Inspector, Postal Inspection Service, direct the Inspector in
Charge, Criminal Investigations, to:

4. Investigate and provide timely feedback to the National Customer Support Center
   and customers on all potentially fraudulent change of address complaints.

We recommend the Chief Inspector, Postal Inspection Service, and the Senior Vice
President, Intelligent Mail and Address Quality, direct the Inspector in Charge, Criminal
Investigations, and Manager, Address Management, respectively, to:

5. Coordinate, develop, and implement policies and procedures for regularly monitoring
   and evaluating all potentially fraudulent COA complaints.

Processing Move Validation Letters in Response to Change of Address Orders

Generally, we found the Postal Service provides Move Validation Letters (MVLs) to
customers in a timely manner. However, we found 230 occurrences where the agency
processed MVLs outside the established timeframe6 of 3 to 10 days, out of 78,389 COA
requests filed by customers between April 8 and 13, 2008. This occurred because the
Postal Service did not align its MVL processing time with FedEx’s delivery schedule.7
COA data losses and system processing issues at CFS sites and Remote Encoding
Centers (REC) also contributed to the delays. Although the 230 exceptions represent a
small percentage of the total processed, providing MVLs to customers in a timely
manner decreases the likelihood of false or fraudulent COAs contributing to identity
theft.

During the audit, management changed its MVL processing schedule to align with
FedEx’s delivery schedule, and as a result, we are not providing a recommendation
regarding this condition. However, we are providing a recommendation to minimize
COA data losses and system processing issues to ensure MVLs are provided to
customers on a timely basis. Click here to go to Appendix B for our detailed analysis of
this topic.




6
 Handbook PO-250, Consumer Answer Book, Chapter 4, Section 4-3, Confirmation Letter.
7
 The NCSC utilizes the services of FedEx for transporting MVLs to the delivery points on a 6-day schedule.
However, NCSC only operates on a 5-day schedule to create and process MVLs.



                                                         4
Identity Theft Potential in the Change of Address Process                    IS-AR-08-016



We recommend the Senior Vice President, Intelligent Mail and Address Quality, direct
the Manager, Address Management, to:

6. Coordinate and implement procedures for minimizing Change of Address data
   losses and system processing issues to ensure the Move Validation Letters are
   provided to customers in the 3- to 10-day timeframe.

Management’s Comments

Management agreed with all six recommendations. Regarding recommendation 1, the
Manager, Address Management, will work with the Assistant Treasurer, Payment
Technologies, and their strategic alliance partner, Imagitas, Inc., to update the ICOA
application xx xxxxxxxx xxxxxxxxxx xx xxxxxxxxx xxxxxxx xxxxxx xxxxx. In addition, the
Manager, Address Management; the Assistant Treasurer, Payment Technologies; the
Manager, Corporate Customer Contact; and the supplier, Convergys PayPal, will work
together to update the TCOA application. The completion date for updating both
applications is March 31, 2009.

For recommendation 2, the Manager, Address Management, will coordinate with the
managers of Customer Service Standardization, Delivery Operations, and Processing
Operations to develop a joint action plan to enhance the signature controls for PS Form
3575 by March 31, 2009. Once the plan is finalized and implemented, Address
Management will implement a process to review a statistical sampling of all PS Forms
3575 each quarter and will report findings on any deviations from established policy and
procedures to the appropriate functional groups. Address Management will continue to
pursue ICOA as its long-term strategy to ensure the entries of COA orders are
legitimate and duly authorized by the customers. Additionally, on May 7, 2008,
Customer Service Standardization issued a standup talk to all CFS units reemphasizing
that the units should not finalize PS Forms 3575 without signatures. Management plans
an additional joint standup talk for CFS Operations and Delivery by September 1, 2008,
to reemphasize the initialing and dating requirements for PS Form 3546, Official
Change/Correction to Mail Forwarding Change of Address Order, and PS Form 3575Z,
Employee Generated Change of Address.

Regarding recommendation 3, management will make changes to the next release of
the CFPS software (version 4.0). The software change will reject the forms for an
individual or family COA nonbusiness move order from a business address prior to
acceptance. The next release of the CFPS software has a tentative deployment date of
May 2009, contingent on other Postal Automated Redirection System dependencies.

In response to recommendations 4 and 5, the Postal Inspection Service plans to issue a
policy update by December 31, 2008, addressing investigative procedures for the
review of COA complaints and documentation, and requiring close coordination and
feedback to the NCSC on the status of their review of COA complaints. The updated
Postal Inspection Service policy requires documentation in the Financial Crimes



                                                     5
Identity Theft Potential in the Change of Address Process                   IS-AR-08-016



Database (FCD) on customer and NCSC contacts, as well as quarterly monitoring to
ensure compliance with the policy. The Postal Inspection Service will communicate with
NCSC and provide semiannual updates on new schemes that may affect the COA
process. The NCSC will also monitor and evaluate potentially fraudulent COA
complaints in conjunction with the Postal Inspection Service. Management stated the
NCSC has already modified its system to record the resolution of complaints as
provided by the Postal Inspection Service.

For recommendation 6, management will ensure that customers receive MVLs in a
timely manner. The response indicated that the NCSC took several significant actions
to improve the timely delivery of MVLs. In February 2008, the NCSC implemented a
change to reduce dispatching lag time for MVLs, and in April 2008 expanded the
printing of MVLs from 5 to 6 days a week. Management indicated these changes
resulted in an 18.7 percent improvement in the number of MVLs delivered within 5 days
of the date the customer COA was entered. NCSC will continue implementing
procedures to ensure that they receive all COAs and will enhance management
oversight of the MVL program. To review management’s comments in their entirety,
click here or go to Appendix C.

Evaluation of Management’s Comments

The U. S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and their corrective actions should
resolve the issues identified in the report.

The OIG considers recommendations 1, 2, 4, and 5 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Gary C. Rippie, Director,
Information Systems, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments



                                                     6
Identity Theft Potential in the Change of Address Process   IS-AR-08-016




cc: Ross Philo
    George W. Wright
    Delores J. Killette
    Anthony M. Pajunas
    Harold E. Stark
    Alice M. VanGorder
    James D. Wilson
    Amy S. Rose
    Lori M. Wigley
    Annette P. Raney
    James W. Kiser
    Thomas M. Addams
    John F. Bolger
    Henry Herrera
    Katherine S. Banks




                                                     7
Identity Theft Potential in the Change of Address Process                                            IS-AR-08-016




                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Identity theft is America's fastest growing crime. The Federal Trade Commission
defines identity theft as a fraud that is committed by using a person’s identifying
information without authority. This can occur when mail is diverted to another location
by completing unauthorized COA orders. Over 40 million Americans change their
address annually, which creates a tremendous challenge for the Postal Service in
maintaining a high-quality repository of addresses. A person’s identity is valuable and if
someone steals it to commit fraudulent acts, it can affect every aspect of that person’s
life, including their credit and ability to purchase a house or car or obtain a job or
medical care.

There are three processes for making a COA request:

        •    Hard copy COA
        •    ICOA
        •    TCOA

                                    Table 1: COA Orders FY 2007

                                    Method              No. Orders       Percentage
                             Hard Copy COA              41,832,042         86.7
                             ICOA                        6,334,336         13.1
                             TCOA                          101,628          0.2
                             Total Orders               48,268,006        100.0

The ICOA and TCOA methods require a $1.00 fee charged to the customer initiating the
COA request. This fee causes a transaction to occur which is used for customer
identity verification purposes. However, the hard copy COA process does not verify the
customer’s identity. The Postal Service processed ICOA orders using eCap to process
credit card payments through First Data Merchant Services8 until January 2008. Credit
card transactions are currently processed through Bank of America Merchant Services.
The Postal Service contracts with Convergys9 to handle TCOA orders using the PayPal
payment processor. Both payment processor systems interact with the Address
Verification System to ensure the ZIP Code and street number in the address provided
matches the billing address on file with the credit card issuer.

8
  Since December 2004, the Postal Service used First Data Merchant Services to process credit card transactions for
customers submitting ICOAs using moversguide.com.
9
  Convergys provides services to the Postal Service by allowing customers to change their address over the
telephone with or without speaking to a TCOA representative.




                                                         8
Identity Theft Potential in the Change of Address Process                             IS-AR-08-016




Once the Postal Service processes COAs, it mails a MVL and then a Confirmation
Notification Letter (CNL) to the customer’s old and new address, respectively. Both
letters are designed to notify customers of the COA filing and provide contact
instructions if the information is incorrect.

Processing a COA involves the Postal Service business units outlined below.

 Postal Service Office                                 COA Function
Customer Service                Manages 115 CFS sites nationwide and oversees the
Operations                      processing of all COA orders.
Corporate Customer              Oversees the contract with Convergys for processing
Contact                         TCOA orders.
Network Operations              Responsible for domestic mail processing and
                                transportation networks, which includes the REC accepting
                                and processing the COA images received from the CFPS.
Delivery Operations             Responsible for delivering MVLs and CNLs within standard
                                delivery time.
NCSC                            The NCSC manages COA business operations, which
                                include hosting data transfers between CFS sites and the
                                NCSC; overseeing contract operations for MVLs and CNLs;
                                and managing the alliance with Imagitas, Inc., which
                                handles the ICOA orders. In addition, they are responsible
                                for receiving and reviewing COA complaints and forwarding
                                potential fraudulent complaints to the Postal Inspection
                                Service.
Postal Inspection Service       Receives information from the NCSC on potentially
                                fraudulent COA orders and complaints for further review
                                and investigation.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine if COA controls ensure that address change requests
are properly authorized and validated to minimize potential identity theft. To accomplish
our objective, we identified risks associated with the three COA methods – ICOA,
TCOA, and hard copy COA. We identified and evaluated controls in place for each of
the three COA methods and determined if controls were being consistently applied as
follows:

•   Authorization – Determine if the customer authorized the change.

•   Accuracy – Determine if the controls in place ensure COA order data are accurate.

•   Completeness – Determine if controls in place ensure COAs are sufficiently
    complete.




                                                     9
Identity Theft Potential in the Change of Address Process                                             IS-AR-08-016



•    Segregation of Duties – Determine if controls are in place to prevent inappropriate
     processing of COAs.

•    Timeliness – Determine if employees process MVLs and CNLs timely.

•    Monitoring/Evaluation – Determine if management adequately evaluates complaints
     on an ongoing basis to detect potential identity theft.

We reviewed documentation, policies and procedures, and interviewed key officials at
the NCSC, Customer Service Operations, the Postal Inspection Service, Consumer
Affairs, Corporate Customer Contact, Delivery Operations, Engineering, and the OIG
Hotline to determine their roles in the COA process. In addition, we selected a
judgmental sample and visited 10 CFS sites10 in seven Postal Service areas11 to review
COA documents and scanned images in the COA Reporting System to identify potential
control weaknesses that may lead to identity theft.

To review the TCOA process, we visited the Corporate Customer Call Center operated
by Convergys in Jacksonville, North Carolina. To determine if controls were operating
as intended, we conducted three tests xxxxx x xxxxxxx xxxxxx xxxx xx xxxxxx xxxx xxx
xxxx xxxxxx. xxx xxxxxxx xxxxxxx xxxx xxx xxx xxxxxxxxxx xxxx x xxxxxxxxx xxxx xx
xxx xx xxx xxxxxxx. We also conducted a test to submit an additional ICOA order using
a credit card that belonged to an individual not associated with the customer’s name
and old or new address.

We visited the NCSC to observe the MVL process. To determine the number of days
for processing the MVL, we obtained 78,390 MVL data records for the period April 8
through 13, 2008. Finally, we reviewed 139 complaints about potentially fraudulent
COAs for the period of October 6, 2006, through December 31, 2007, that the NCSC
forwarded to the Postal Inspection Service to determine if complaints are adequately
evaluated on an ongoing basis. We interviewed employees of the NCSC, the Postal
Inspection Service, Consumer Affairs, Corporate Customer Contact, and the OIG
Hotline to determine how they handle incoming COA complaints.

We conducted this performance audit from January through August 2008 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We assessed the reliability of

10
   We conducted our audit work at CFS sites in Greensboro and Raleigh, North Carolina; Louisville, Kentucky; Atlanta
and Marietta, Georgia; Latham, New York; Indianapolis, Indiana; Santa Ana, California; Phoenix, Arizona; and
Memphis, Tennessee.
11
   These CFS sites are in the following Postal Service areas: Capital Metro, Eastern, Southeast, Northeast, Great
Lakes, Pacific, and Western.



                                                        10
Identity Theft Potential in the Change of Address Process                     IS-AR-08-016



computer-generated data supporting the audit finding and concluded the data was
sufficiently reliable to meet our audit objective. We discussed our observations and
conclusions with management officials during the audit and on July 25, 2008, and
included their comments where appropriate.




                                                     11
Identity Theft Potential in the Change of Address Process                                 IS-AR-08-016




PRIOR AUDIT COVERAGE



                                  Report         Final Report       Monetary
         Report Title             Number             Date            Impact          Report Results
     Management Advisory        OE-MA-03-005     May 21, 2003             None   The Postal Service’s
     – Postal Service’s                                                           process for validating COA
     Procedures to Validate                                                       orders was adequate. The
     Change of Address                                                            MVL helped detect when
     Orders                                                                       fraudulent orders were
                                                                                  processed. However, if the
                                                                                  Postal Service considers
                                                                                  accepting COA requests by
                                                                                  telephone,12 it might want
                                                                                  to explore controls to
                                                                                  prevent the acceptance of
                                                                                  fraudulent COA orders.
     Change of Address –        IS-AR-06-013     July 17, 2006            None   Existing application controls
     Application Control                                                         are sufficient to ensure the
     Review                                                                      overall integrity of the data
                                                                                 within the COA system.
                                                                                 However, improvements
                                                                                 could be made primarily in
                                                                                 the areas of access
                                                                                 controls, segregation of
                                                                                 duties, protection of
                                                                                 sensitive information,
                                                                                 information security
                                                                                 assurance documentation,
                                                                                 and audit logging.
     Identity Theft Potential   IS-AR-08-006     March 6, 2008       $137,428    The Postal Service should
     in Postal Service                                                           enhance controls
     Information Systems                                                         surrounding the protection
                                                                                 of sensitive and personally
                                                                                 identifiable information in
                                                                                 the systems we reviewed.
                                                                                 Specifically, management
                                                                                 needs to make
                                                                                 improvements in the areas
                                                                                 of user access, date
                                                                                 protection, and the
                                                                                 collection and use of
                                                                                 personally identifiable data
                                                                                 on forms. Also, the Postal
                                                                                 Service should discontinue
                                                                                 one of its employment
                                                                                 verification systems.



12
     This 2003 audit was conducted prior to the implementation of TCOA.



                                                     12
Identity Theft Potential in the Change of Address Process                     IS-AR-08-016



                              APPENDIX B: DETAILED ANALYSIS

Authentication of Internet and Telephone Change of Address Orders

Xxxxxxxxx xxx xxxx xxxx xxx xxxx xxxxxxxx xxxxx x xxxxxxx xxxxxx xxxx,
xxxxxxxxxxxxx xxxxxxxxxxxxx xxx xxxxxxx xxxxxxxxxxxx xxxxxxxx xxxxxxxx, xxx
xxxxxxxxxx xxx xxx xxxxxx xxx xxxx xxx xxxx xxxxxxxxxxxx xx xxxxxxxx xxx xxx xx
xxxxxxxxx xxxxxxx xxxxxx xxxxx. xxxxxxxxxxx xxx xxxxxxxxxx xx xxxxxxxxx xxxxxxx
xxxxxx xxxxx xxxx xxxxxxxxx xxxxxx xxxx xxx xxxx xxxxxx xxxxx xxxxxx xxxx
xxxxxxxxxx xxxxxxxxxxx xxxxxx xxx xxxxxx. xxxx xxxx xxxxxxx xxxxxx xxx xxxx xx
xxxxxxxxx xxxx xx xxxxxxxxxxxx xxxxxxxxx, xxxxx xxxxxxxxxxx xx xxxxxxxxx xxxxx,
xxxxxxxx xxxxx, xxx xxxxxxxx xxxx xx xxxxxxxxx.

The Postal Service has a contract with Imagitas, Inc., for providing online services to
process ICOAs and a draft Requirements and Analysis Specification for Postal Service
COA Phase 3 with Convergys to process TCOAs. The NCSC is responsible for ICOA
and TCOA business rules and both methods charge an identity verification fee of $1.
The Postal Service uses this fee to validate if the customer’s street number and ZIP
Code in the address provided matches the billing address on file with the credit card
issuer.

xx xxxxxxxxx xxxxx xxxxx x xxxxxxx xxxxxx xxxx xx xxxxxx xxxx xxx xxxx xxxxxx. xxxx
xxxxx xxx xxxxxxx xxxxxx xxxx, xxx xxxxxx xxx xxx xxxxxxx xxx xxxxxxxx xx xxxxxxxx
xxxxx xxx xxxxxxx, xxx xxxxxxx, xx xxx xxxxx xxxxxxxx xxxxxxxxxxxx xxxxxxxxxxx. xxx
xxxxxx xxxxxxxxxx xxxxxxxx xxx xxx xxxxxx xxx xxxx xxx xxxx xxxx xxxx xx xxxxxxxxx
xx xxx xxxx.

We also conducted tests to submit ICOA orders using credit cards that belonged to
individuals not associated with the customer’s name and old or new addresses. The
system was unable to verify the customer’s identity with the information provided and
the COA orders were properly rejected.

Authentication of Hard Copy Change of Address Orders

Authorization and validation controls surrounding the hard copy COA process do not
always prevent the acceptance and processing of COA requests which may not be
legitimate and authorized by the owner of the address. The Postal Service faces
challenges to ensure a proper balance between providing timely customer service and
assuring proper customer authorization for the hard copy COA process.




                                                     13
Identity Theft Potential in the Change of Address Process                                           IS-AR-08-016



Our review of 217 COA orders (PS Forms 357513) from 10 CFS sites showed:

•    Twenty-two COA orders (10 percent) without customer signatures or with lines or
     marks in the signature box.
•    Twenty-four COA orders (11 percent) where the customer name and signature did
     not match.
•    Five COA orders (2 percent) with the Postal Service employee’s signature or initials
     in the customer’s signature box.

The Postal Service often receives COA orders in the mail for processing. Some forms
do not have signatures and others contain invalid lines or marks in the signature box.
CFS site employees normally review PS Forms 3575 prior to scanning.

Customers’ failure to sign (authorize) PS Forms 3575 is the most common error and
CFS employees should reject forms without customer signatures and return them to
delivery units.14 If not detected before scanning, REC sites also should reject these
orders and return them to the delivery units. In addition, any person who uses a
fictitious, false, or assumed title, name, or address, or name other than his own proper
name, shall be fined under Title 18 or imprisoned not more than 5 years, or both.

The Postal Service has determined that ICOA is the most efficient way for customers to
file a COA request. Therefore, the NCSC has planned the "Behind the Counter” pilot
project, which will increase the use of the ICOA method. This will be done by replacing
all PS Forms 3575 at the counter with ICOA cards. The Postal Service is conducting
this pilot project from June 16 to August 31, 2008, at 597 Post Offices in the Denver,
Colorado; Minneapolis, Minnesota; and Tampa, Florida, service areas and plans to
evaluate the results.

Employee Override of System Warnings

CFS employees could override the CFPS warning notification message when manually
processing individual COA non-business move orders from a business address. When
CFS employees manually enter the business address, a screen warning appears
indicating they will not be able to complete the record. Procedures state employees
should reject address changes for non-business moves from business addresses.
However, management issued a bulletin to instruct employees to override the system
warning. Also, policy15 states individuals should not have assigned duties that cause a
conflict of interest or present an undetectable opportunity for malicious wrongdoing,
fraud, or collusion.
13
   PS Form 3575 is a hard copy COA order.
14
   Handbook PO-250, Consumer Answer Book, Chapter 4, Section 4-4; CFPS Scanner Site Operations Training
Course Operator/Supervisor Participant Handbook; and CFS Keying Rules-Table B-2, Name and Data Information
and Table C-1, Reject Reasons-Form Not Signed; U.S.C., Title 18, Part 1, Chapter 63, Section 1342 (Fictitious Name
or Address).
15
   Handbook AS-805, Information Security, March 2002, updated with Postal Bulletin revisions through November 23,
2006, Section 6-3.1 Separation of Duties and Responsibilities.



                                                       14
Identity Theft Potential in the Change of Address Process                                              IS-AR-08-016



Continuous Monitoring and Evaluation of Change of Address Complaints

The Postal Inspection Service was not regularly monitoring, evaluating, and notifying
the NCSC and customers regarding the status and resolution of potentially fraudulent
COA complaints, because it had no policies or procedures for doing so. Addressing
COA complaints would contribute to the protection of the Postal Service’s brand, its
commitment to protect customer information, and its efforts to combat identity theft. We
will report this non-monetary impact for goodwill/branding in our Semiannual Report to
Congress.

The NCSC has a process for evaluating COA complaints. Complaints identified as
potentially fraudulent are forwarded to the Postal Inspection Service for further review,
investigation, and resolution. We reviewed 139 potentially fraudulent COA complaints
the NCSC referred to the Postal Inspection Service. These consisted of only hard copy,
ICOA, and White Fence16 complaints, as there were no TCOA complaints. As indicated
in the table below, only 18 (13 percent) were assigned investigation case numbers,17
while 36 (26 percent) were assigned FCD18 numbers.

                   Table 2: Complaints Assigned a Case or FCD Number
                             by the Postal Inspection Service

                                                         Case                 FCD
                                          Total        Numbers     Case     Numbers      FCD
                       COA Type         Complaints     Assigned     %       Assigned      %
                       Hard Copy            99            14         14        21          21
                       ICOA                 29             2          7        11          38
                       White Fence          11             2         18         4          36
                       Total               139            18         13        36          26

The potentially fraudulent COA complaints are for the period October 6, 2006, to
December 31, 2007, with reported monetary impact totaling $468,212. Customers
reported loss of identity, stolen checks, and the establishment of auto loans, credit
cards, and, in at least one instance, a mortgage, in their names. Currently the Postal
Inspection Service selectively reviews complaints based on ongoing investigations and
categorization of cases. Improvements are needed in monitoring, evaluating, and
notifying the NCSC and customers regarding the status and resolution of this type of
complaint.

The Postal Inspection Service and the NCSC are aware of the issues surrounding COA
complaints and are evaluating solutions to improve the COA complaint and resolution
16
   White Fence is a third party company providing free COA services online to Postal Service customers.
17
   Management assigns case numbers if COA complaints warrant further investigation by the Postal Inspection
Service.
18
   The FCD is a web-based investigative application the Postal Service uses to capture mail theft and identity theft
complaints. This system is available to all Postal Service inspectors, however, not all potentially fraudulent COA
complaints the NCSC forwarded to the Postal Inspection Service are placed in the FCD database and assigned FCD
numbers.



                                                         15
Identity Theft Potential in the Change of Address Process                                  IS-AR-08-016



process. Also, the NCSC is in the process of developing the COA Watch Initiative, a
trend analysis system designed to prevent the use of Postal Service COA methods for
malicious purposes.

Processing Move Validation Letters in Response to Change of Address Orders

Generally, we found the Postal Service provides MVLs to customers in a timely manner.
However, we found 230 occurrences where the agency processed MVLs outside the
established timeframe19 of 3 to 10 days, out of 78,389 COA requests filed by customers
between April 8 and 13, 2008. Our analysis indicates the average number of days to
process MVLs ranged from .20 to 1.39.

We analyzed the MVL data for each of the 10 CFS sites to determine the anomalies by
identifying the range of processing days. We found occurrences where the longest MVL
processing time ranged from 18 to 98 days. Postal Service’s MVL processing time,
FedEx’s delivery schedule, COA data losses, and system processing issues at CFS
sites and RECs contributed to the delays. Although the 230 exceptions represent a
small percentage of the total processed, providing MVLs to customers in a timely
manner decreases the likelihood of false or fraudulent COAs contributing to identity
theft.




19
     Handbook PO-250, Consumer Answer Book, Chapter 4, Section 4-3, Confirmation Letter.



                                                        16
Identity Theft Potential in the Change of Address Process   IS-AR-08-016



                        APPENDIX C: MANAGEMENT’S COMMENTS




                                                     17
Identity Theft Potential in the Change of Address Process   IS-AR-08-016




                                                     18
Identity Theft Potential in the Change of Address Process   IS-AR-08-016




                                                     19
Identity Theft Potential in the Change of Address Process   IS-AR-08-016




                                                     20
Identity Theft Potential in the Change of Address Process   IS-AR-08-016




                                                     21
Identity Theft Potential in the Change of Address Process   IS-AR-08-016




                                                     22
